OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID/WEST BANK
AND GAZA’S IMPLEMENTATION
OF EXECUTIVE ORDER 13224—
BLOCKING PROPERTY AND
PROHIBITING TRANSACTIONS
WITH PERSONS WHO COMMIT,
THREATEN TO COMMIT, OR
SUPPORT TERRORISM
AUDIT REPORT NO. 6-294-08-001-P
DECEMBER 10, 2007




CAIRO, EGYPT
Office of Inspector General


December 10, 2007

MEMORANDUM

TO:            USAID/West Bank and Gaza Director, Howard Sumka

FROM:          Regional Inspector General/Cairo, Lloyd J. Miller /s/

SUBJECT:       Audit of USAID/West Bank and Gaza’s Implementation of Executive Order
               13224—Blocking Property and Prohibiting Transactions with Persons Who
               Commit, Threaten to Commit, or Support Terrorism (Report No. 6-294-08-001-P)

This memorandum transmits our final report on the subject audit. We have considered your
comments on our draft report and incorporated them where appropriate. They are included in
their entirety as appendix II.

This report includes three recommendations to USAID/West Bank and Gaza: (1) to establish
procedures to ensure compliance with existing policy that all subawardees are vetted, (2) to
establish procedures to ensure compliance with existing policy that contractors and
subcontractors are vetted if they receive contracts or subcontracts over any 12-month period
that cumulatively total more than $25,000, and (3) to develop policies and procedures that
address how each antiterrorism provision applies to assistance-related purchase orders. Based
on your comments and the documentation provided, both management decisions and final
actions have been taken for all recommendations. No further actions are required.

Thank you for the cooperation and courtesy extended to the audit team during this audit.
CONTENTS
Summary of Results ....................................................................................................... 1

Background ..................................................................................................................... 2

     Audit Objective ............................................................................................................ 3

Audit Findings ................................................................................................................. 4

Has USAID/West Bank and Gaza implemented policies,
procedures, and controls to comply with Executive Order 13224?

     USAID/West Bank and Gaza Should
     Ensure all Awardees Are Vetted ................................................................................. 6

     USAID/West Bank and Gaza Should Clarify Applicability of
     Antiterrorism Provisions to Purchase Orders .............................................................. 9

Evaluation of Management Comments ....................................................................... 11

Appendix I—Scope and Methodology......................................................................... 12

Appendix II—Management Comments........................................................................ 14
SUMMARY OF RESULTS
The Regional Inspector General in Cairo, Egypt, conducted this audit to determine
whether USAID/West Bank and Gaza implemented policies, procedures, and controls to
comply with Executive Order 13224, which is intended to block property and prevent
transactions with terrorists, potential terrorists, and their supporters (see page 3). The
audit found that USAID/West Bank and Gaza has, in fact, implemented policies,
procedures, and controls. Our opinion was based on the mission’s (1) compliance with
obtaining antiterrorism certifications from organizations awarded grants or cooperative
agreements, (2) compliance with the inclusion of mandatory antiterrorism clauses in
contracts and grants, (3) the correction of vetting database deficiencies previously
identified, and (4) compliance with required vetting of organizations and individuals (see
page 4).

With regard to required antiterrorism certifications and clauses, we reviewed all 42 prime
awards and 20 randomly selected subawards that started during the 2-year period of
January 1, 2005, through December 31, 2006.

•   Of the 26 awards and subawards requiring antiterrorism certifications, all were
    compliant (see page 4).
•   Of the 60 awards and subawards requiring mandatory clauses, 59 were compliant
    (see page 4). The one exception was a March 2005 purchase order subaward (no
    longer active) for approximately $91,000 that did not include the mandatory clauses
    (see page 4); however, the applicability of mission guidance to purchase orders was
    not sufficiently clear (see page 9).

The mission made substantial progress in correcting vetting database deficiencies
previously identified, which included deploying a new vetting database, providing a
four-part name in almost all database records, limiting the information able to be entered
into approved data tables, eliminating the ability to overwrite data, establishing a clear
audit trail for changes made to the data, storing vetting reports in locked cabinets, and
designating the head of the Office of Contracts Management as the system owner for
the new vetting database (see pages 5 and 6).

The audit did, however, note the need for some improvement. USAID/West Bank and
Gaza did not vet 2 of 26 prime awardees and subawards in accordance with mission
vetting procedures. Although both cases deal with awards that are no longer active,
they highlight the need for USAID/West Bank and Gaza to take additional steps to
improve vetting controls over organizations and individuals (see page 6). The report
includes three recommendations to USAID/West Bank and Gaza to: (1) establish
procedures to ensure compliance with existing policy that all subawardees are vetted;
(2) establish procedures to ensure compliance with existing policy that contractors and
subcontractors are vetted if they receive contracts or subcontracts over any 12-month
period that cumulatively total more than $25,000; and (3) develop policies and
procedures that address how each antiterrorism provision applies to assistance-related
purchase orders (see pages 8 to 10).

In its response to the draft report, USAID/West Bank and Gaza agreed with all three of
the recommendations and documented its actions to implement them; therefore, both
management decisions and final actions have been taken for all recommendations (see
page 11). USAID/West Bank and Gaza’s comments for the draft report are included in
their entirety in appendix II (see page 14).
                                                                                        1
BACKGROUND
Following the events of September 11, 2001, President Bush issued Executive Order
13224 – Blocking Property and Prohibiting Transactions With Persons Who Commit,
Threaten To Commit, or Support Terrorism, which took effect on September 24, 2001.
Executive Order 13224 identifies certain individuals and entities that commit or pose a
significant risk of committing terrorist acts. The directive, which authorizes both the
Secretary of State and the Secretary of Treasury to designate additional individuals and
entities, prohibits transactions with, and support for, individuals or entities listed in or
subject to the order.

                              Maps of West Bank and Gaza




USAID/West Bank and Gaza primarily implemented Executive Order 13224 on terrorist
financing through three mechanisms:

•   Vetting: Screening organizations and individuals to ensure that the organizations or
    individuals are not affiliated with terrorism.

•   Certifications: Requiring organizations to certify that the organization does not provide
    material support or resources for terrorism, before being awarded a grant or
    cooperative agreement by USAID.



                                                                                           2
•   Clauses: Requiring clauses in awards and subawards which (1) remind contractors
    and recipients that U.S. Executive orders and U.S. law prohibit transactions with, and
    the provision of resources and support to, individuals and organizations associated with
    terrorism and (2) restrict the naming of facilities in honor of individuals who commit, or
    have committed, acts of terrorism.

Since the issuance of the Executive order, USAID/West Bank and Gaza has established
mission policies and procedures to comply with the directive. In August 2003, the
mission issued its first comprehensive policy for vetting, certifications, and clauses. In
March 2006, USAID/West Bank and Gaza updated its policy by issuing Mission Order
No. 21, which establishes criteria requiring non-U.S. organizations and individuals to be
vetted for links to terrorism prior to the awarding of contracts, grants, and cooperative
agreements. The criteria considers dollar thresholds for cumulative awards, award
types, and time since the organization was last vetted to determine whether or not an
organization is required to be vetted.

In response to vetting database deficiencies identified by the USAID Inspector General
and the U.S. Government Accountability Office, USAID/West Bank and Gaza deployed a
new vetting database in December 2006.

AUDIT OBJECTIVE
We conducted this audit as part of the Office of Inspector General’s audit plan for fiscal
year 2007 to answer the following question:

•   Has USAID/West Bank and Gaza implemented policies, procedures, and controls to
    comply with Executive Order 13224?

Appendix I contains a discussion of the audit’s scope and methodology.




                                                                                            3
AUDIT FINDINGS
The audit found that USAID/West Bank and Gaza has implemented policies,
procedures, and controls to comply with Executive Order 13224. We evaluated the
mission’s (1) compliance with obtaining antiterrorism certifications from organizations
awarded grants or cooperative agreements, (2) compliance with the inclusion of
mandatory antiterrorism clauses in contracts and grants, (3) the correction of vetting
database deficiencies previously identified, and (4) compliance with required vetting of
organizations and individuals. For compliance with obtaining antiterrorism certifications
from awardees, the inclusion of mandatory antiterrorism clauses in contracts and grants,
and the correction of vetting database deficiencies, USAID/West Bank and Gaza
achieved substantial progress in correcting deficiencies. 1

With regard to required antiterrorism certifications and clauses, we reviewed all 42 prime
awards issued during the 2-year period of January 1, 2005, through December 31, 2006.
For the same time period, we also randomly selected and reviewed 20 subawards from
a universe of 202 subawards issued during the same period (a total of 62 awards), which
resulted in the following:

•   Of the 26 awards (19 prime awards and 7 subawards) that required antiterrorism
    certifications in accordance with the mission’s policies and procedures, all were in
    compliance.

•   Of the 60 awards (40 prime awards and 20 subawards) that required the mandatory
    clauses in accordance with the mission’s policies and procedures, 59 were in
    compliance. The one exception was a February 2005 purchase order subaward for
    approximately $91,000 that did not include the mandatory clauses. This subaward is
    no longer active.

In October 2006, USAID/West Bank and Gaza implemented a new process to ensure
that the mission received copies of required antiterrorism certifications and mandatory
clauses for all subawards. The mission now requires prime recipients to submit a
monthly listing of all new subawards to the Office of Contracts Management, along with
copies of the antiterrorism certifications and contract clauses. The Office of Contracts
Management reviews the documents to ensure that they comply with mission
requirements for antiterrorism certifications and contract clauses. In order to test the
effectiveness of these new procedures, we reviewed 89 additional subawards that began
between January 1 to April 29, 2007. (USAID/West Bank and Gaza did not issue any
new prime awards during this period.) These additional awards were selected on a
random basis from a total universe of 204 subawards obtained from the monthly
submissions by the prime awardees. For the 89 additional subawards reviewed, we
found the following:
1
 See the following USAID Inspector General and U.S. Government Accountability Office reports.
•  Inspector General, “Survey of USAID/West Bank and Gaza’s Implementation of Executive
   Order 13224—Blocking Property and Prohibiting Transactions With Persons Who Commit,
   Threaten to Commit, or Support Terrorism” (Report No. 6-294-05-004-S, March 30, 2005)
• Inspector General, “Quick Response Review of Vetting Procedures at USAID/West Bank and
   Gaza” (Report No. 6-294-06-001-S, June 19, 2006) (SBU)
• Government Accountability Office, “Foreign Assistance: Recent Improvements Made, but
   USAID Should Do More to Help Ensure Aid Is Not Provided for Terrorist Activities in West
   Bank and Gaza” (GAO-06-1062R, September 29, 2006)
                                                                                           4
•   Of the 15 subawards that required antiterrorism certifications in accordance with the
    mission’s policies and procedures, 2 all prime recipients submitted copies of the
    required certifications.

•   Of the 89 subawards that required the mandatory clauses in accordance with the
    mission’s policies and procedures, all had the requested documentation.

USAID/West Bank and Gaza took action to correct vetting database deficiencies
identified in previous audit work conducted by the USAID Inspector General and the
General Accountability Office (GAO), including working with USAID Washington to
deploy a new vetting database. Other examples of mission corrective actions included
the following.

•   The former vetting database was missing at least one of the names in the required
    four-part name 3 in about 30 percent of the records. The new Partner Vetting System
    database was missing one of the names in about 3 percent of the records.

•   The former vetting database had inappropriate data in approximately one out of
    every nine records. For example, fields designed to display key individuals’ titles
    contained the names of Middle Eastern countries or titles such as “office boy” or
    “administrative assistant.” The Partner Vetting System has limited the information
    able to be entered into approved data tables.

•   The former vetting database included data fields that could be overwritten, and the
    database lacked an audit trail. The Partner Vetting System eliminated the ability to
    overwrite data and provided a clear audit trail for changes made to the data.

•   The former vetting database was developed by a Palestinian Foreign Service
    national without USAID/West Bank and Gaza having obtained required approval.
    USAID/Washington developed the new Partner Vetting System under its system
    development process.

•   USAID/West Bank and Gaza had not developed technical documentation for the
    former vetting database.        USAID has developed user requirements, system
    architecture, data dictionaries, and user manuals for the Partner Vetting System.

•   USAID/West Bank and Gaza formerly had not designated an office within the
    mission as the database owner. USAID/West Bank and Gaza designated the head
    of the Office of Contracts Management as the system owner for the Partner Vetting
    System.

•   The mission stored vetting reports containing the names of key individuals linked to
    terrorism in an unlocked filing cabinet. The mission now stores these reports in
    locked cabinets.

2
  The certification process is a USAID-wide requirement and is not limited to USAID/West Bank
and Gaza. The underlying requirement is from USAID Acquisition and Assistance Policy
Directive 04-14 which refers to "organizations" receiving grants and cooperative agreements. As
a consequence, certifications are not required for contracts. Of the 89 sampled sub-awards, 74
were subcontracts that did not require certifications.
3
  The four-part name comprises the individual’s given name, the father’s given name, the
grandfather’s given name, and the individual’s surname.
                                                                                             5
While these policies, procedures, and controls help ensure that U.S. assistance does not
support terrorist activities, in 2 out of 26 cases tested, USAID/West Bank and Gaza did
not vet awardees in accordance with mission policy. In both cases, the awards are no
longer active. As a consequence, USAID/West Bank and Gaza needs to take additional
steps to further improve the effectiveness of its controls for the vetting of organizations
and individuals as follows:

•    USAID/West Bank and Gaza should establish procedures to ensure compliance with
     existing policy that all subawardees are vetted.

•    USAID/West Bank and Gaza should establish procedures to ensure compliance with
     existing policy that contractors and subcontractors are vetted if they receive
     contracts or subcontracts over any 12-month period that cumulatively total more than
     $25,000.

•    In addition to the controls for vetting, the mission should also clarify how antiterrorism
     provisions apply to assistance-related purchase orders.

USAID/West Bank and Gaza Should
Ensure all Awardees Are Vetted

    Summary: USAID/West Bank and Gaza issued Mission Order No. 21 in March
    2006 (superseding 2003 policy) updating vetting requirements. USAID/West Bank
    and Gaza did not vet 2 of 26 prime awardees and subawardees in accordance with
    mission vetting procedures. In one case, the mission attributed the lack of vetting
    to a concurrent change in policy. In the other case, the mission was not aware that
    the subcontractor existed. In both cases, the awards are no longer active. Without
    additional controls, the mission could inadvertently provide support to entities or
    individuals associated with terrorism.

USAID/West Bank and Gaza issued Mission Order No. 21 in March 2006 establishing
the most recent vetting requirements. The new order superseded guidance issued in
August 2003 and defined the applicability of vetting for contractors and subcontractors,
recipients of assistance instruments, trainees, and other direct recipients of cash or
in-kind assistance. Specifically, the mission order included the following requirements.

•    The vetting of any non-U.S. organization or individual under a cooperative
     agreement, grant, or subgrant regardless of the dollar amount.

•    The vetting of any non-U.S. organization or individual proposed for a contract or
     subcontract more than $25,000. This included contracts to be awarded by USAID,
     subcontracts to be awarded by prime contractors, and contracts to be awarded by
     grantees and recipients of cooperative agreements.

•    The $25,000 threshold for contracts and subcontracts was cumulative for multiple
     awards to the same firm within a 12-month period. (This $25,000 threshold was a
     decrease from the prior threshold of $100,000.)

•    For organizations, vetting applies only to first-tier and second-tier recipients.


                                                                                             6
•   Once an awardee has been approved under these procedures and has received an
    award, the approval generally will remain in effect for that particular award until its
    expiration date.

•   For any new awards or extensions of existing awards, the awardee must be vetted if
    more than 12 months has passed since the awardee was last approved pursuant to
    these procedures. If fewer than 12 months has passed, vetting is not required for
    that award or extension.

In addition to reviewing all 42 prime awards awarded during the 2-year period of
January 1, 2005, through December 31, 2006, we randomly selected 20 subawards from
a universe of 202 subawards awarded during the same period. Of the 62 awards, 26 (13
prime awards and 13 subawards) involved local entities that required vetting in
accordance with the mission’s policies and procedures. In 2 out of 26 cases tested,
USAID/West Bank and Gaza did not vet the awardees for awards that are no longer
active.

•   USAID/West Bank and Gaza awarded a $33,000 contract on September 26, 2005, to
    a local contractor, the Center for Engineering & Planning, to oversee completion of a
    new water transmission pipeline. The mission extended the period of performance
    and increased the contract on March 27, 2006, to $66,000 and on April 29, 2006,
    increased it again to $77,000. USAID/West Bank and Gaza originally vetted the
    Center for Engineering & Planning in 2003. In accordance with existing procedures
    in 2005, the mission did not submit the original $33,000 award for vetting because it
    was subject to the 2003 mission order that included a $100,000 threshold and did not
    require revetting for 3 years. However, with the increase in the award in March
    2006, the mission should have vetted this award for two reasons: (1) The award was
    for more than $25,000 and the new vetting threshold applied and (2) the duration of
    the prior vetting approval in 2003 was more than 12 months. (USAID/West Bank and
    Gaza’s Mission Order No. 21 became effective on March 13, 2006—14 days before
    the subcontract. As a consequence, Mission Order No. 21 was applicable.) The
    mission attributed the lack of vetting to the concurrent change (14 day difference) in
    mission policy.

•   USAID/West Bank and Gaza signed a contract in May 2005 with El Concorde to
    supply and install 2,750 meters of steel pipe. El Concorde (a local USAID/West
    Bank and Gaza prime contractor) awarded a $312,562 subcontract on November 6,
    2005, to a small local contractor, El Karama for Trading and General Contracting, to
    perform pipe trenching, backfilling, compaction, and restoration. In addition, El
    Karama installed concrete manholes and valves. Although required, USAID/West
    Bank and Gaza did not vet El Karama for Trading and General Contracting. The
    mission was not aware that this subcontractor existed.

These cases highlight two additional steps the mission should take to improve the
effectiveness of mission controls for the vetting of organizations and individuals. First,
USAID/West Bank and Gaza should establish procedures to ensure compliance with
existing policy that all subawardees are vetted. Second, USAID/West Bank and Gaza
should establish procedures to ensure compliance with existing policy that contractors
and subcontractors are vetted if they receive contracts or subcontracts over any
12-month period that cumulatively total more than $25,000. Without these additional
controls, the mission could inadvertently provide support to entities or individuals
associated with terrorism.

                                                                                         7
With regard to procedures to ensure that all subawardees are vetted, the mission plans
to expand the information required from prime awardees in their monthly reports. In
October 2006, USAID/West Bank and Gaza implemented a new process to ensure that
for subawards, the mission receives copies of required antiterrorism certifications and
mandatory clauses. On a monthly basis, the mission now requires prime recipients to
submit a listing of all new subawards to the Office of Contracts Management, along with
copies of the antiterrorism certifications and contract clauses. The Office of Contracts
Management reviewed the documents to ensure that they complied with mission
requirements for antiterrorism certifications and contract clauses. Thus, to track vetting
actions, the mission plans to also request and then review vetting information from prime
awardees from the monthly submissions. According to the mission, for each award the
prime recipient would be asked, (1) “Did vetting of the awardee take place prior to this
award?” and (2) “Has your file been documented confirming the vetting result or the
decision not to vet?” This additional information request will require prime recipients to
document their decisions to vet subawardees in accordance with Mission Order No. 21.

With regard to procedures to ensure that contractors and subcontractors are vetted if
they receive contracts or subcontracts over any 12-month period that cumulatively total
more than $25,000, the mission relied on oversight by its cognizant technical officers
and prime recipients. However, this oversight is not sufficient for the mission to
determine whether the $25,000 threshold has been exceeded in situations for which
subcontractors receive awards from more than one prime contractor in different program
areas. To track the cumulative rule for contracts, the mission now enters every contract
and subcontract of up to $25,000 into the Partner Vetting System to determine whether
the award exceeds the threshold. This action alone does not trigger a vetting request,
however. When a contract causes a particular award recipient to exceed the $25,000
threshold, the mission’s Program Support Unit will then advise the cognizant technical
officer that a vetting request must be submitted. The mission plans to document this
requirement in a revision to Mission Order No. 21.

       Recommendation 1: We recommend that USAID/West Bank and Gaza
       establish and document procedures to ensure compliance with existing
       policy that all subawardees are vetted.

       Recommendation 2: We recommend that USAID/West Bank and Gaza
       establish and document procedures to ensure compliance with existing
       policy that contractors and subcontractors are vetted if they receive
       contracts or subcontracts over any 12-month period that cumulatively
       total more than $25,000.




                                                                                        8
USAID/West Bank and Gaza Should Clarify Applicability of
Antiterrorism Provisions to Purchase Orders

    Summary: Of 60 reviewed awards requiring antiterrorism contract clauses, 59
    included evidence for the required mandatory clauses. The one exception was a
    February 2005 purchase order subcontract (no longer active) for approximately
    $91,000 that did not include the mandatory clauses. As the Government
    Accountability Office (GAO) previously reported in September 2006, the
    applicability of mission guidance to purchase orders is not sufficiently clear, which
    reduces the effectiveness of the mission’s controls to prevent terrorist financing.

With regard to required antiterrorism clauses, USAID/West Bank and Gaza awarded 42
prime awards during the two year period from January 1, 2005, through December 31,
2006. For the same time period, we also randomly selected 20 subawards from a
universe of 202 subawards awarded for a total of 62. Of those, 60 (40 prime awards and
20 subawards) required the mandatory clauses in accordance with the mission’s policies
and procedures.

Of the 60 awards requiring contract clauses, 59 included evidence for the required
mandatory clauses. The one exception was a February 2005 purchase order
subcontract from one U.S.-based organization (John Snow Research and Training
Institute) to another U.S.-based organization (Johns Hopkins University) for
approximately $91,000 to prepare a preliminary report outline for the evaluation of the
USAID/West Bank and Gaza Maternity Homes Project. This award is no longer active.

In September 2006, GAO issued a report 4 stating that, in the examination of
USAID/West Bank and Gaza subaward information provided by prime awardees,
auditors found some purchase orders with the antiterrorism clause and others without.
Mission guidance applicable in 2005 and the more recent 2006 mission guidance
(Mission Order No. 21) do not sufficiently clarify that the terms “contracts, grants,
cooperative agreements” mean any instrument acting as a contract, grant, or
cooperative agreement and that the mission’s antiterrorism provisions apply to all such
agreements including purchase orders. Accordingly, GAO recommended that USAID
“develop policies and procedures that address how each antiterrorism provision applies
to consulting agreements, letters of understanding, memorandums of understanding,
and purchase orders.” USAID disagreed with the GAO recommendation noting that
these instruments either do not provide assistance or are already covered by the
mission’s guidance.

We agree with the GAO position. The one exception in our sample of 60 awards was for
an assistance-related purchase order subcontract of approximately $91,000. However,
according to current mission guidance, the inclusion of mandatory antiterrorism clauses
within such an instrument is not sufficiently clear, thereby reducing the effectiveness of
the mission’s controls to prevent terrorist financing. As a result, we are making the
following recommendation.




4
  Government Accountability Office, “Foreign Assistance: Recent Improvements Made, but
USAID Should Do More to Help Ensure Aid Is Not Provided for Terrorist Activities in West Bank
and Gaza” (GAO-06-1062R, September 29, 2006)
                                                                                            9
Recommendation 3: We recommend that USAID/West Bank and Gaza
develop policies and procedures that address how each antiterrorism
provision applies to assistance-related purchase orders.




                                                                      10
EVALUATION OF
MANAGEMENT COMMENTS
In its response to the draft report, USAID/West Bank and Gaza agreed with all of the
report recommendations and stated that the mission actions to implement each of the
recommendations strengthen USAID compliance with the antiterrorism requirements of
Executive Order 13224.

In response to recommendation no. 1, in October 2006, the mission implemented a new
process to ensure that the mission receives copies of required antiterrorism certifications
and mandatory clauses by requiring prime awardees to provide a monthly listing of all
new subawards and copies of the required antiterrorism certifications and mandatory
clauses. In order to ensure all relevant subawardees are vetted in accordance with
policy, the mission expanded the monthly listing obtained from prime awardees which is
submitted to the mission for review. For each new subaward, the prime awardee is now
requested to (1) indicate whether vetting of the subawardee took place prior to the award
and (2) confirm that the files have been documented confirming the vetting result or the
decision not to vet. The mission promulgated this change to prime awardees through
Notice WBG-2008-01, dated October 22, 2007.

In response to recommendation no. 2, in June 2007, the mission established a system
by which every first and second tier contract up to $25,000 (unless an exception applies)
is entered into the Partner Vetting System on a monthly basis. When a contract causes
the awardee to exceed the $25,000 cumulative threshold over a 12-month period, the
Partner Vetting System alerts mission staff that vetting is required. This requirement has
also been documented in the recent revision to Mission Order No. 21 issued on
October 3, 2007.

In response to recommendation no. 3, the revision to Mission Order No. 21 issued on
October 3, 2007, included language clarifying that all written instruments that acted as
contracts or grants are to be treated as such regardless of the name of the instrument.
Additionally, Notice 2007-WBG-26 issued October 5, 2007, identified and elaborated on
this addition to Mission Order No. 21, specifically addressing purchase orders as well as
other types of instruments noted by name in the September 29, 2006, GAO report.

In addition, the mission stated that it continues to ensure mission and partner staff is
aware of the need to remain diligent in regard to complying with the requirements of
Executive Order 13224. This is done through periodic issuance of notices, through
training conducted at both internal and partner meetings and through continuous
informal meetings with mission staff and partners. Initial training specific to the revised
Mission Order No. 21 was held on October 3, 2007, with mission staff and on
October 18, 2007, with partner staff.

As a result of mission actions to implement each of the three recommendations,
management decisions and final actions have been completed. USAID/West Bank and
Gaza’s comments for the draft report are included in their entirety in appendix II.




                                                                                        11
                                                                                APPENDIX I



SCOPE AND METHODOLOGY
Scope
The Regional Inspector General/Cairo conducted this audit in accordance with generally
accepted government auditing standards. We performed the fieldwork for this audit at
USAID/West Bank and Gaza from May 1 to June 5, 2007.
As part of its fiscal year 2007 audit plan, the Regional Inspector General/Cairo performed
this audit to answer the following question: Has USAID/West Bank and Gaza implemented
policies, procedures, and controls to comply with Executive Order 13224? In planning and
performing the audit, we assessed the effectiveness of the following significant
USAID/West Bank and Gaza controls for implementing Executive Order 13224 on terrorist
financing:
•   Vetting: Screening organizations and individuals to ensure that the organizations or
    individuals are not affiliated with terrorism.
•   Certifications: Requiring organizations to certify that the organization does not provide
    material support or resources for terrorism before being awarded a grant or cooperative
    agreement by USAID.
•   Clauses: Requiring clauses in awards and subawards which (1) remind contractors
    and recipients that U.S. Executive orders and U.S. law prohibit transactions with, and
    the provision of resources and support to, individuals and organizations associated with
    terrorism and (2) restrict the naming of facilities in honor of individuals who commit, or
    have committed, acts of terrorism.
The audit team tested awards from two different samples covering two different time
periods as follows.
•   The audit team tested 62 awards from January 1, 2005, through December 31, 2006,
    consisting of all 42 prime awards and 20 randomly selected subawards from a
    universe of 202 subawards. The audit team reviewed these 62 prime awards and
    subawards for compliance with vetting, certifications, and contract clauses.
•   The audit team tested 89 subawards from January 1, 2007, to April 29, 2007, from a
    universe of 204 subawards. From January 1, 2007, to April 29, 2007, the mission
    issued no prime awards. The audit team reviewed these 89 subawards for
    compliance with the certification and contract clause requirements.
We also considered prior audit findings of the USAID Inspector General and the U.S.
Government Accountability Office. 5




5
 See the following USAID Inspector General and U.S. Government Accountability Office reports.
•  Inspector General, “Survey of USAID/West Bank and Gaza’s Implementation of Executive
   Order 13224—Blocking Property and Prohibiting Transactions With Persons Who Commit,
   Threaten to Commit, or Support Terrorism” (Report No. 6-294-05-004-S, March 30, 2005)
• Inspector General, “Quick Response Review of Vetting Procedures at USAID/West Bank and
   Gaza” (Report No. 6-294-06-001-S, June 19, 2006) (SBU)
• Government Accountability Office, “Foreign Assistance: Recent Improvements Made, but
   USAID Should Do More to Help Ensure Aid Is Not Provided for Terrorist Activities in West
   Bank and Gaza” (GAO-06-1062R, September 29, 2006)
                                                                                           12
                                                                              APPENDIX I

Methodology

To form a conclusion about the audit objective, the audit team examined mission
documents and interviewed mission staff including the USAID/West Bank and Gaza
Deputy Director, the regional legal advisor, and contracting officers and staff. The audit
team also examined the history of the implementation of the mission polices and
procedures since the Executive order was issued on September 24, 2001. In addition,
the audit team examined (1) the mission’s vetting documentation and vetting database
and (2) and procurement records to determine if antiterrorism certifications had been
signed and the required clauses were included in the awards and subawards.

In evaluating the mission’s vetting process, the audit team reviewed all 42 prime awards
awarded during the 2-year period from January 1, 2005, through December 31, 2006. In
addition, we randomly selected 20 subawards from a universe of 202 subawards during
the same period for a total of 62. For the 62 awards reviewed, 26 (13 prime awards and
13 subawards) were non-U.S. entities that were required to be vetted. For each award,
we determined (1) whether the award was to a U.S. or non-U.S. organization or
individual, (2) the type of award, (3) the period of the award, and (4) the vetting criteria
applicable during the award. We also reviewed the vetting request and the response to
the vetting request for both the key individuals associated with the award as well as the
organizations themselves.

In addition, the audit team examined the procedures for the new vetting database, the
Partner Vetting System, which the mission deployed in December 2006. We also
determined whether the mission had corrected previously identified weaknesses in the
former vetting database.

In evaluating whether the missions’ awards contained the antiterrorism certifications and
contract clauses, the audit team reviewed all 42 prime awards awarded during the two
year period of January 1, 2005, through December 31, 2006. In addition, we randomly
selected 20 subawards from a universe of 202 subawards awarded during the same
period for a total of 62 awards. For the 62 awards reviewed, a total of 26 awards (19
prime awards and 7 subawards) required antiterrorism certifications in accordance with
the mission’s policies and procedures. Sixty (40 prime awards and 20 subawards)
required the award clauses.

In late 2006, the mission implemented a new process and control to ensure that
subawards included the necessary antiterrorism certifications. In order to test the
effectiveness of these new procedures, the audit team reviewed an additional 89
subawards with award start dates from January 1, 2007, to April 29, 2007. These
additional awards were selected on a random basis from a total universe of 204
subawards obtained from the monthly submissions by the prime awardees. Of these 89
subawards, 15 required the antiterrorism certifications and 89 required the contract
clauses.




                                                                                         13
                                                                                     APPENDIX II



MANAGEMENT COMMENTS


MEMORANDUM
Date:          October 23, 2007

To:            Lloyd Miller, Regional Inspector General - Cairo

From:          Howard J. Sumka, Mission Director /s/

Subject:       Audit of USAID/West Bank and Gaza’s Implementation of Executive Order
               13224-Blocking Property and Prohibiting Transactions With Persons Who
               Commit, Threaten to Commit, or Support Terrorism” (Audit Report No. 6-294-
               08-00X-P)

The Mission is pleased to provide its management comments on the subject draft audit report
entitled “Audit of USAID/West Bank and Gaza’s Implementation of Executive Order 13224-
Blocking Property and Prohibiting Transactions With Persons Who Commit, Threaten to
Commit, or Support Terrorism” (Audit Report No. 6-294-08-00X-P). The Mission hopes that the
responses elaborated for each recommendation will be considered by RIG/Cairo as it prepares
its final report.

The draft report includes three recommendations which are addressed below.

Recommendation 1: We recommend that USAID/West Bank and Gaza establishes and
documents procedures to ensure that all sub-awardees are vetted in accordance with policy.

Mission Response: As mentioned in the draft report this recommendation is a result of
findings related to 2 out of 26 tested cases in which vetting did not occur in accordance with
Mission policies and procedures. In one case this was due to the concurrent change (10 day
difference between policy issuance and award’s extension) in Mission policy. In the other case
this was due to the Mission not being made aware by the prime awardee that vetting was
needed.

In October 2006, the Mission implemented a new process to ensure the Mission received copies
of required antiterrorism certifications and mandatory clauses by requiring prime awardees to
provide a listing of all new sub-awards and copies of the required antiterrorism certifications and
mandatory clauses on a monthly basis.

In order to ensure all relevant sub-awardees are vetted in accordance with policy, the Mission
expanded the monthly listing obtained from prime awardees which is submitted to the Mission
for review. For each new sub-award, the prime awardee is now requested to: 1) indicate if
vetting of the sub-awardee took place prior to award and; 2) confirm that their files have been
documented confirming the vetting result or the decision not to vet. The Mission promulgated
                                                                                                  14
                                                                                      APPENDIX II

this change to prime awardees through Notice WBG-2008-01, dated October 22, 2007 (see
Attachment I).

Recommendation 2: We recommend that USAID/West Bank and Gaza establishes and
documents procedures to ensure that contractors and sub-contractors are vetted if they receive
contracts or sub-contracts over any 12-month time period which cumulatively total in excess of
$25,000 in accordance with policy.

Mission Response: This issue was raised by the RIG auditors during their fieldwork and as a
result in June 2007, the Mission established a system by which every 1st and 2nd tier contract of
$25,000 and under (unless an exception per Mission Order #21 applies) is entered into the
Partner Vetting System (PVS) on a monthly basis. When a contract causes the awardee to
exceed the $25,000 cumulative threshold over a 12-month period, the PVS alerts Mission staff
that vetting is required. This requirement has also been documented in the recent revision to
Mission Order #21 issued on October 3, 2007 (see Attachment II).

Recommendation 3: We recommend that USAID/West Bank and Gaza develops policies and
procedures that address how each antiterrorism provision applies to assistance-related
purchase orders.

Mission Response: As mentioned in the report, this recommendation is related to an earlier
GAO report issued in September 2006, which suggested the need for additional clarifying
guidance regarding how antiterrorism provisions apply to assistance-related purchase orders,
and the current RIG/Cairo review which revealed that 1 of 60 reviewed awards (a purchase
order issued in February 2005), did not include the mandatory antiterrorism clause.

To address this recommendation, the Mission Order #21 revision issued on October 3, 2007,
included language clarifying that all written instruments that acted as contracts or grants are to
be treated as such regardless of the name of the instrument. Additionally, Notice 2007-WBG-26
issued October 5, 2007 (see Attachment II), identified and elaborated on this addition to Mission
Order #21, specifically addressing purchase orders as well as other types of instruments noted
by name in the September 29, 2006 GAO report.

In addition to the above, the Mission continues to ensure Mission and Partner staff is aware of
the need to remain diligent in regard to ensuring compliance with the requirements of Executive
Order 13224. This is done through periodic issuance of Contractor/Grantee Notices which are
disseminated to both Mission and Partner staff, and through training conducted at both internal
and partner meetings, in addition to continuous informal meetings held with Mission staff and
partners to discuss general and specific issues related to vetting. Initial training specific to the
revised Mission Order #21 was held on October 3, 2007, with Mission staff and on October 18,
2007, with Partner staff.

The Mission appreciates the constructiveness of the RIG recommendations and we believe the
documented Mission response to each strengthens USAID compliance with the antiterrorism
requirements of Executive Order 13224. Based on the responses provided above and the
accompanying documentation of actions taken, the Mission requests that RIG consider closing
each recommendation upon issuance of the final report.
Thank you for the courtesies extended by your staff during the conduct of the audit.




                                                                                                  15
U.S. Agency for International Development
        Office of Inspector General
        1300 Pennsylvania Ave, NW
          Washington, DC 20523
            Tel: (202) 712-1150
            Fax: (202) 216-3047
            www.usaid.gov/oig
